USCA11 Case: 20-11614

Date Filed: 10/01/2020

Page: 1 of 9

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 20-11614
Non-Argument Calendar
________________________
D.C. Docket No. 5:19-cv-00070-TES

JENEAN ELIZABETH WINSTON,
ROBERT E. HENDERSON,
Temporary Administrator of the Estate of Dylan Mark Walsh,
Plaintiffs-Appellants,
versus
MARK ANTHONY WALSH,
________________________

Defendant-Appellee.

Appeal from the United States District Court
for the Middle District of Georgia
________________________
(October 1, 2020)
Before WILSON, BRASHER, and ANDERSON, Circuit Judges.
PER CURIAM:

1a

USCA11 Case: 20-11614

Date Filed: 10/01/2020

Page: 2 of 9

This is a case about foreign service of process. The appellants 1 assert that
the district court erred in dismissing the case for insufficient service of process
under the Federal Rules of Civil Procedure, the Hague Convention, and English
law. We disagree and affirm the district court’s order.
BACKGROUND
Jenean Winston and Mark Walsh (Walsh) are divorced. Pursuant to a
divorce settlement, Winston and Walsh agreed to joint custody of their child
Dylan. In August of 2015, Dylan tragically passed away while under the care of
Walsh. Walsh lost track of Dylan one evening while the two were at a lake in
Macon, Georgia. Divers found Dylan’s body the next morning. The District
Attorney did not bring criminal charges against Walsh.
In August of 2017, Winston brought a claim against Walsh for negligence
and wrongful death in Georgia state court. In 2018, Winston dismissed this state
suit and filed a renewal action in the United States District Court for the Middle
District of Georgia. 2 To bring a renewal action under Georgia law, the original
action must have been valid. Lathan v. Hosp. Auth. of Charlton Cty., 805 S.E.2d
450, 454 (Ga. Ct. App. 2017). Walsh claims that the original suit was void
1

The appellants in this case are Jenean Winston, who is the mother of Dylan Walsh, and Robert
Henderson, who is the Temporary Administrator for the Estate of Dylan Walsh. For clarity
purposes, this opinion uses Jenean Winston’s name when referring to the appellants.
2
Under Georgia law, a plaintiff can renew a timely-filed case even if he or she previously chose
to dismiss the claim. O.C.G.A § 9-2-61(a).

2a

USCA11 Case: 20-11614

Date Filed: 10/01/2020

Page: 3 of 9

because of insufficient service of process, and that the federal courts, therefore, do
not have jurisdiction.
Walsh is originally from the United Kingdom (U.K.). After Dylan’s death,
he moved back to the U.K. He also remarried. When Winston brought the suit,
she did not know where Walsh was living. She hired a private investigator to try to
locate Walsh but was unable to directly locate him.
When Winston attempted to serve Walsh under Article 5 of the Hague
Convention on the Service Abroad of Judicial and Extrajudicial Documents (the
Hague Convention), she listed his address as Terra Nova, New Road, Mockbeggar,
Ringwood (Terra Nova). Walsh did not live at Terra Nova, but his sister lived and
worked there. Walsh’s wife used the Terra Nova address on business-related
documents, noting it as her residence three times between 2017 and 2018. Walsh’s
wife and sister operated that business together. Additionally, Walsh shipped
certain vehicles from the U.K. to the U.S. and used Terra Nova as the shipper’s
address. Winston was aware that Walsh’s sister owned the property at Terra Nova,
but she still used this address when she submitted documents for service.
In response to the suit, Walsh filed a motion to dismiss pursuant to Federal
Rule of Civil Procedure 12(b)(5), claiming that Winston did not to properly serve
him. The court granted Walsh’s motion.

3a

USCA11 Case: 20-11614

Date Filed: 10/01/2020

Page: 4 of 9

STANDARD OF REVIEW
“We review [a] district court’s grant of a motion to dismiss for insufficient
service of process under [Federal Rule of Civil Procedure] 12(b)(5) by applying a
de novo standard to the law and a clear error standard to any findings of fact.”
Prewitt Enters., Inc. v. Org. of Petroleum Exporting Countries, 353 F.3d 916, 920
(11th Cir. 2003).
“When service of process is challenged, [the plaintiff] must bear the burden
of establishing its validity.” Aetna Bus. Credit, Inc. v. Universal Décor & Interior
Design, Inc., 635 F.2d 434, 435 (5th Cir. 1981).3
DISCUSSION
I.
Under the Due Process Clauses of the Fifth and Fourteenth Amendments,
federal courts must have personal jurisdiction over defendants. Ins. Corp of Ir. v.
Compagnie des Bauxites de Guinee, 456 U.S. 694, 702–03 (1982). As a part of
this jurisdictional requirement, the plaintiff must notify the defendant of the suit—
known as service of process or service of summons. Prewitt, 353 F.3d at 921.
Federal Rule of Civil Procedure 4(f) outlines how to serve summons when
the defendant resides in a foreign country. In relevant part, Rule 4(f) states: “[A]n

3

In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc), we adopted as
binding precedent all decisions of the former Fifth Circuit handed down prior to the close of
business on September 30, 1981.

4a

USCA11 Case: 20-11614

Date Filed: 10/01/2020

Page: 5 of 9

individual . . . may be served at a place not within any judicial district of the
United States: (1) by any internationally agreed means of service that is reasonably
calculated to give notice, such as those authorized by the Hague Convention.”
Fed. R. Civ. P. 4(f)(1).
The Hague Convention established rules for when “there is occasion to
transmit a judicial or extrajudicial document for service abroad.” Volkswagenwerk
Aktiengesellschaft v. Schlunk, 486 U.S. 694, 699 (1988) (citation omitted). These
rules “simplify, standardize, and generally improve the process of serving
documents abroad.” Water Splash, Inc. v. Menon, 137 S. Ct. 1504, 1507 (2017)
(citations omitted).
Article 1 of the Hague Convention states that the “Convention shall not
apply when the address of the person to be served . . . is not known.” Hague
Service Convention art. 1, Nov. 15, 1965, 20 U.S.T. 361. Article 2 mandates that
each contracting country “designate a Central Authority which [] undertake[s] to
receive requests for service coming from other” countries to the agreement. Id.
art. 2. Once a Central Authority receives a request, it should serve documents “by
a method prescribed by [its] internal law[s].” Volkswagenwerk, 486 U.S. at 699.
After the Central Authority serves the person named in the request, it must
“complete a certificate . . . that the document has been served.” Hague Service
Convention art 6., 20 U.S.T. 361.

5a

USCA11 Case: 20-11614

Date Filed: 10/01/2020

Page: 6 of 9

While we have not decided the issue, courts in other circuits have decided
that a certificate by a Central Authority creates a prima facie case that service was
adequate. See Northrup King Co. v. Compania Productora Semillas Algoneras
Selectas S.A., 51 F.3d 1383, 1389 (8th Cir. 1995); Unite Nat’l Ret. Fund v. Ariela,
Inc., 643 F. Supp. 2d 328, 334 (S.D.N.Y. 2008). Generally, those courts will not
“look behind” the certificate unless the defendant shows lack of notice or
prejudice. Northrup, 51 F.3d at 1390. We, however, require a “careful
determin[ation] that service of process was in substantial compliance with the
formal requirement of the Federal Rules.” Prewitt, at 924 n.14 (explaining that
mere notice of suit does not constitute substantial compliance); see also Burgos v.
Sand Canyon Corp., 813 Fed. App’x 363, 366 (11th Cir. 2020) (noting that a
defendant was not properly served when process was mailed to the wrong address).
The Civil Procedure Rules of England and Wales dictate proper service in
this case. Rule 6.3(1)(c) provides that summons may “be served by . . . leaving it at
a place specified in rule 6.7, 6.8, 6.9, or 6.10.” Civil Procedure Rules 1998, SI
1998/3132, Pt 6(1) rule 6.3 (Eng). Rule 6.9 addresses serving an individual who
has not provided an address, stating that such individuals should be served at their
“[u]sual or last known residence.” Id. Pt 6(II) rule 6.9.
Two English cases are particularly instructive as to the meaning of Rule 6.9.
In Varsani v. Relfo Ltd. (In Liquidation), the English Court of Appeal, considered

6a

USCA11 Case: 20-11614

Date Filed: 10/01/2020

Page: 7 of 9

“the defendant’s pattern of life” when deciding what constituted his usual
residence under Rule 6.9. [2010] EWCA (Civ) 560 (Eng.). This is a fact-driven,
context-based test. Id. (considering how often the defendant stayed at the property,
that his immediate family lived at the property, and that he owned the property as
persuasive in finding it was his usual residence under Rule 6.9). Collier v.
Williams addresses the meaning of “last known residence.” [2006] EWCA (Civ)
20 (Eng.). There, the English Court of Appeal emphasized that a plaintiff’s
knowledge is important, and that it is not enough for a plaintiff to “assume” a
location is a party’s last known residence.4 Id. That court did mention, however,
that there are certain situations where a plaintiff can make a reasonable mistake as
to a defendant’s last known address. In those situations, courts must consider any
relevant surrounding facts and if the defendant purposely misled the plaintiff to the
make this mistaken belief. Id. (“If the claimant is mislead by the defendant as to
his residence, then the court is likely to hold that the claimant had reasonable
grounds for his belief.”).
II.
On appeal, Winston first argues that Walsh was properly served under the
Hague Convention because Terra Nova was his “last known or usual address”

4

Specifically, the court in Collier found insufficient service of process “for the simple reason
that [the defendant] has never resided at” the address where service was attempted. Collier,
[2006] EWCA (civ) 20.

7a

USCA11 Case: 20-11614

Date Filed: 10/01/2020

Page: 8 of 9

under Rule 6.9. Under the Hague Convention, the Civil Procedure Rules of
England and Wales control the analysis as to where Walsh resided at the time
Winston tried to serve him.
The district court reasonably found that Winston did not offer enough facts
to show that Terra Nova was Walsh’s usual or last known residence. Some facts
indicate that Walsh spent time at Terra Nova—Walsh’s sister lived there, his wife
and sister’s company operated from there, and he shipped cars there on occasion.
However, none of these facts, the court found, demonstrated a pattern of residential
use. Additionally, Walsh never lived at Terra Nova, nor did he mislead Winston to
be believe that he lived there. So, under Collier, Winston did not make a
reasonable mistake in serving Walsh at Terra Nova. Because the district court
applied the correct law and made reasonable factual determinations that Terra
Nova was not Walsh’s usual or last known residence, we must affirm.
III.
Winston then argues we should defer to the certificate by the Central
Authority as prima facie evidence of service. We need not decide this issue for
two reasons. First, under our precedent, there must be “substantial compliance,”
with the Federal Rules of Civil Procedure to find sufficient service. Prewitt, 353
F.3d at 925. There was not substantial compliance here, as Walsh never resided at
Terra Nova. Second, the issue is not squarely before us—Walsh challenged

8a

USCA11 Case: 20-11614

Date Filed: 10/01/2020

Page: 9 of 9

whether the Hague Convention applied to him at all, because Winston did not
know his address. It is the plaintiff’s—not the Central Authority’s—responsibility
to find the correct address of a defendant. The Central Authority merely serves a
defendant with the address supplied in a request. Hague Service Convention, 20
U.S.T. 361. Thus, the certificate is not relevant to our primary inquiry.
IV.
Additionally, Winston raised a new argument on appeal as to why service
was proper under Rule 6.15 of the Civil Procedure Rules of England and Wales.
She did not raise this issue until appeal, and thus we will not consider it. Finnegan
v. Comm’r, 926 F.3d 1216, 1271 (11th Cir. 2019).
CONCLUSION
Because the district court applied the correct law and made reasonable
findings of fact in its decision, we affirm its ruling that plaintiffs did not properly
serve Walsh in accordance with Federal Rule of Civil Procedure 4(f)(1), the
Hauge Convention, and English law.
AFFIRMED.

9a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 1 of 23

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
JENEAN ELIZABETH WINSTON and
ROBERT E. HERNDON, Temporary
Administrator of the Estate of Dylan Mark
Walsh,
CIVIL ACTION NO.
5:19-cv-00070-TES

Plaintiffs,
v.
MARK ANTHONY WALSH,
Defendant.

ORDER DISMISSING CASE FOR LACK OF PERSONAL JURISDICTION DUE TO
INSUFFICIENT SERVICE OF PROCESS

This lawsuit attempts to renew a previous state-court action Plaintiff Jenean
Elizabeth Winston voluntarily dismissed. In it, she and Plaintiff Robert E. Herndon, the
mother and estate administrator, respectively, of decedent Dylan Mark Walsh, seek
damages against Defendant Mark Anthony Walsh, Dylan’s father, for negligence and
wrongful death under Georgia law.
In its most general sense, this case concerns whether Plaintiffs properly served
Walsh, a British national, via the Hague Convention and raises personal jurisdiction,
service of process, and statute-of-limitations issues. In defense of these claims, Walsh
makes two main arguments. First, in a pending Motion for Summary Judgment [Doc.
33], Walsh argues that this action, as a whole, is time-barred because Winston never

10a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 2 of 23

properly served him in the original state-court lawsuit, rendering it void and therefore
unrenewable. Second, he contends that the Court cannot currently exercise personal
jurisdiction over him because he has not been properly served in this action. 1 Because
Walsh is correct in his second argument, the Court cannot rule on his first. As explained
below, the Court DISMISSES this case for lack of personal jurisdiction because
Plaintiffs never properly served Walsh.
FACTUAL BACKGROUND
Jenean Winston and Mark Walsh divorced on June 1, 2015, and as part of the
divorce settlement, they agreed to joint custody of their three-year-old child, Dylan.
[Doc. 19 at ¶¶ 13–15]. On August 1, 2015, Walsh took Dylan to the Fish ‘N Pig, a
restaurant abutted by a lake and several docks in Macon, Georgia. [Id. at ¶ 17]. At the

Just to be clear, Walsh filed an earlier motion to dismiss under Federal Rule of Civil Procedure 12(b)(5).
[Doc. 5]. In response, Plaintiffs sought leave to amend their Complaint, which the Court partially granted.
[Doc. 18]. The Court also denied Walsh’s motion as moot in light of Plaintiffs’ leave to amend, explaining
that it lacked sufficient evidence to rule on the sufficiency of service and allowed the parties 90 days to
conduct discovery on that and other issues. [Id. at pp. 15–17]. After receiving the Amended Complaint,
[Doc. 19], Walsh filed a second motion to dismiss, raising, among other things, the same issue relating to
service. [Doc. 21-1 at pp. 19–20]. The Court again declined to rule on Walsh’s motion because, at that time,
it wanted to receive all arguments relating to the procedural posture of the case at once, whether they
dealt with Rule 12(b)(6), 12(b)(5) or summary judgment related to statute-of-limitations issues. [Doc. 24].
The Court never intended to dismiss Walsh’s Rule 12(b)(5) motion outright; rather, it simply delayed
ruling in order to allow the parties to present evidence gathered during the limited discovery period as
mentioned in the Order [Doc. 18] allowing Plaintiffs to amend. Although Walsh reiterates his arguments
concerning Rule 12(b)(5) in his summary judgment motion, the Court accepts them in support of his
second motion to dismiss as it indicated it would in its earlier Order. [Doc. 18 at p. 16 (“Therefore, the
Court will allow the parties an appropriate amount of time to conduct limited discovery into this issue
and present briefs to the Court should they so desire.”)]. Simply put, the Court understands that Walsh’s
Rule 12(b)(5) motion is nonetheless pending so far as it relates to questions other than statute-oflimitations issues.
1

11a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 3 of 23

end of the evening, Walsh took Dylan down to a dock to see the boats, but at some
point, after playing in and around the boats next to the dock, Walsh lost track of Dylan.
[Id. at ¶¶ 20–21, 32–34]. When no one could find Dylan, a security guard at the
restaurant called local law enforcement. [Id. at ¶¶ 21, 23]. The search continued through
the night; however, Macon-Bibb County Fire Department divers recovered Dylan’s
body under a dock the next morning around 10:00. [Id. at ¶¶ 27, 53]. On August 20,
2015, five days after Dylan’s funeral, the District Attorney for the Macon Judicial Circuit
publicly announced that his office would not pursue any criminal charges against
Walsh in relation to Dylan’s death. [Id. at ¶ 101].
Initially, Winston sued Walsh in the Superior Court of Bibb County, Georgia, on
August 1, 2017––literally 35 minutes before what she believed to be the expiration of the
controlling statute of limitations. O.C.G.A. § 9-3-33 (“Actions for injuries to the person
shall be brought within two years after the right of action accrues . . . .”). Winston later
dismissed her state-court lawsuit on September 5, 2018. On the last possible day to do
so, Plaintiffs filed this lawsuit under Georgia’s renewal statute, a unique statutory
provision allows a state-court plaintiff to renew a timely-filed case even if she
previously chose to discontinue or dismiss it. O.C.G.A. § 9-2-61(a).
Renewal actions may be filed in a Georgia state court or a federal court, but the
original discontinued or dismissed state-court action must have been filed within the
applicable statute of limitations in order for it to be valid. See id. (“When any case has

12a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 4 of 23

been commenced in either a state or federal court within the applicable statute of
limitations and the plaintiff discontinues or dismisses the same, it may be recommenced
in a court of this state or in a federal court either within the original applicable period of
limitations or within six months after the discontinuance or dismissal, whichever is
later[.]”). If the original action was timely filed and not void, it relates back to the
original filing date, and any statute-of-limitations issues are irrelevant. However, if for
some reason the original suit is void, it cannot be renewed if the applicable limitations
period has since expired. Lathan v. Hospital Auth. of Charlton Cty., 805 S.E.2d 450, 454
(Ga. Ct. App. 2017) (quoting Coles v. Reese, 730 S.E.2d 33, 34 (Ga. Ct. App. 2012)).
As explained in an earlier Order, however, we know that the two-year
limitations period on Winston’s claims was tolled for 19 days––the amount of time
between the date of Dylan’s death (August 1, 2015) and the date the district attorney
announced he would not pursue criminal charges (August 20, 2015). [Doc. 18 at pp. 10–
15]; O.C.G.A. § 9-3-99. 2 Applying the 19-day tolling period, the statute of limitations for
Winston to file her negligence and wrongful death claims ran on Monday, August 21,
2017, and her state-court lawsuit filed on August 1, 2017, was timely. Fed. R. Civ. P.

The relevant tolling provision provides:
The running of the period of limitations with respect to any cause of action in tort that may
be brought by the victim of an alleged crime which arises out of the facts and circumstances
relating to the commission of such alleged crime committed in this state shall be tolled
from the date of the commission of the alleged crime or the act giving rise to such action
in tort until the prosecution of such crime or act has become final or otherwise terminated,
provided that such time does not exceed six years . . . .
O.C.G.A. § 9-3-99.
2

13a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 5 of 23

6(a)(1); see also O.C.G.A. § 9-11-6(a); O.C.G.A. § 1-3-1(d)(3). However, just because the
original state-court action was timely filed and any statute-of-limitations issues relating
to filing may have been resolved, the analysis does not end there.
Again, the original state-court action must have also been valid and not void. An
original suit is void “if service was never properly perfected, ‘and a void lawsuit cannot
be renewed outside the period of limitation.’” Lathan, 805 S.E.2d at 454 (quoting Coles,
730 S.E.2d at 34). This is the core of Walsh’s summary judgment arguments: that the
original state-court action was void, and now time-barred, because Winston never
properly perfected service in that suit. [Doc. 33-2 at p. 9].
However, in the final pages of both his brief in support of his summary judgment
motion and a previous Motion to Dismiss 3 [Doc. 21], Walsh calls the Court’s jurisdiction
into question and seeks dismissal for insufficient service of process. [Doc. 33-2 at pp. 17–
18]; [Doc. 21-1 at pp. 19–20]; see Martin v. U.S. Bank Nat’l Assoc., No. 3:14-cv-00069-TCBRGV, 2014 WL 12538167, at *3 (N.D. Ga. Oct. 4, 2014). Service of process is a
jurisdictional requirement, and a court lacks jurisdiction over the person of the
defendant when he has not been served. Igbinigie v. Wells Fargo Bank, N.A., No. 3:08-CV-

The Court previously denied this dismissal motion “to the extent it concern[ed] tolling and . . . [statuteof-limitations]” arguments because those arguments “are more suited to summary adjudication.” [Doc. 24
at p. 4]; [Doc. 18 at pp. 7–8 (citing La Grasta v. First Union Sec., Inc., 358 F.3d 840, 845 (11th Cir. 2004))].
Now, with the benefit of a 90-day, limited discovery period (to uncover facts related to service and
statute-of-limitations issues), Walsh, via his latest Rule 12(b)(5) motion, reasserts his argument that the
Court lacks personal jurisdiction over him with respect to this action. [Doc. 33-2 at pp. 17–18]; see also n.1,
supra.
3

14a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 6 of 23

58 (CDL), 2008 WL 4862597, at *1 (M.D. Ga. Nov. 10, 2008) (quoting Pardazi v. Cullman
Med. Ctr., 896 F.2d 1313, 1317 (11th Cir. 1990)). “By definition, ‘service of summons is
the procedure by which a court having venue and jurisdiction of the subject matter of
the suit asserts jurisdiction over the person of the party served.’” Prewitt Enters., Inc. v.
Organization of Petroleum Exp. Countries, 353 F.3d 916, 921 (11th Cir. 2003) (quoting Miss.
Publ’g Corp. v. Murphree, 326 U.S. 438, 444–45 (1946)). Further, it is reversible error for a
district court to address the merits of a cause of action when the plaintiff has failed to
properly effect service of process in accordance with Federal Rule of Civil Procedure 4.
Igbinigie, 2008 WL 4862597, at *1 (citing Jackson v. Warden, FCC Coleman-USP, 259 F.
App’x 181, 182–83 (11th Cir. 2007) (per curiam)); see also Wilson v. Prudential Fin., 332 F.
Supp. 2d 83, 89 n.2 (D.D.C. 2004). Accordingly, because the Court, for the reasons
explained below, determines that Plaintiffs failed to properly serve Walsh in substantial
compliance with the Federal Rules of Civil Procedure, see Prewitt, infra, it lacks the
authority to address his summary judgment arguments. Specifically, the Court is
without jurisdiction to determine whether Winston’s original state-court action was
void for failure to perfect service and, therefore, unable to be renewed.
DISCUSSION
Although the questions of personal jurisdiction and service of process are closely
related, the latter is merely the means by which a federal court gives notice to the
defendant and asserts jurisdiction over him. 5B Wright & Miller Federal Practice and

15a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 7 of 23

Procedure Civil 3d § 1353, at 338. The inquiry presented in this case concerns Federal
Rule of Civil Procedure 12(b)(5) and its connection to Rule 4. Walsh argues that because
Plaintiffs have yet to properly serve him in this action, the Court cannot exercise its
personal jurisdiction over him so that dismissal is required.
A.

Rule 12(b)(5)

To begin, in Cambridge Mut. Fire Ins. v. City of Claxton, the Eleventh Circuit Court
of Appeals acknowledged that Federal Rule of Civil Procedure 4 governs service of
process in diversity cases. 720 F.2d 1230, 1232 n.2 (11th Cir. 1983). If the plaintiff fails to
serve the defendant in accordance with Rule 4, the defendant may move to dismiss the
case under Rule 12(b)(5). Auto-Owners Ins. v. Smith, No. 1:18-cv-05737-SCJ, 2019 WL
5701294, at *1 (N.D. Ga. Apr. 9, 2019) (citing Fed. R. Civ. P. 12(b)(5)). “Initially, the
defendant has the burden of challenging the sufficiency of service and ‘must describe
with specificity how the service of process failed to meet the procedural requirements of
[Rule 4].’” Id. (quoting Hollander v. Wolf, No. 09–80587–CIV, 2009 WL 3336012, at *3 (S.D.
Fla. Oct. 14, 2009)).
Once the defendant meets that burden, it shifts to the plaintiff to prove a prima
facie case of proper service. Id. “How the plaintiff discharges that burden depends on
the method of service employed.” Joint Stock Co. Channel One Russia Worldwide v. Infomir
LLC, No. 16-CV-1318 (GBD) (BCM), 2018 WL 4681616, at *7 (S.D.N.Y. Sept. 11, 2018).
When service is made abroad pursuant to the Hague Convention, as permitted by

16a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 8 of 23

Federal Rule of Civil Procedure 4(f)(1), “the adequacy of that service must be proved ‘as
provided in the applicable [treaty or convention].’” Id. (quoting Fed. R. Civ. P.
4(l)(2)(A)). Then, “[i]f the plaintiff can establish that service was proper, . . . the burden
shifts back to the defendant to ‘bring strong and convincing evidence of insufficient
process.’” Auto-Owners, 2019 WL 5701294, at *1 (quoting Hollander, 2009 WL 3336012, at
*3). Any factual question raised by affidavits or other evidence is to be determined by
the district court in accordance with Federal Rule of Civil Procedure 12(d). Id. (“The
Court may look to affidavits, depositions, and oral testimony to resolve disputed
questions of fact.”); see also 5B Wright & Miller Federal Practice and Procedure Civil 3d
§ 1353, at 345 (citations omitted).
As to the first part of the burden-shifting scheme, Walsh contends that Plaintiffs
failed to meet the procedural requirements under the Hague Convention, and by
extension Rule 4(f)(1), since “the address where he was allegedly served . . . in this
action is not an address where he resides or otherwise lives, but is the address of his
sister.” [Doc. 33-2 at p. 17]. Now, the burden shifts to Plaintiffs to prove a prima facie
case of proper service.
B.

The Hague Convention

Here, Plaintiffs chose to serve Walsh via the Hague Convention. As a multilateral
treaty, the purpose of the Convention on Service Abroad of Judicial and Extrajudicial
Documents in Civil and Commercial Matters, 20 U.S.T. 361, infra, is to “simplify,

17a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 9 of 23

standardize, and generally improve the process of serving documents abroad.” Water
Splash, Inc. v. Menon, 137 S. Ct. 1504, 1507 (2017) (citations omitted). The Hague
Convention requires that each signatory nation “establish a [C]entral [A]uthority to
receive requests for service of documents from other countries.” Id. at 1508 (quoting
Volkswagenwerk Aktiengesellschaft v. Schlunk, 486 U.S. 694, 698 (1988)). When a Central
Authority receives a proper request under Article 5 of the Hague Convention, “it must
serve the documents by a method prescribed by the internal law of [its] state or by a
method designated by the requester and compatible with that law.” Schlunk, 486 U.S. at
699; see also Convention on Service Abroad of Judicial and Extrajudicial Documents in
Civil and Commercial Matters art. 5, Nov. 15, 1965, 20 U.S.T. 361, T.I.A.S. No. 6,638. In
other words, for service on Walsh to be proper in this case, Plaintiffs must have served
him in accordance with English service laws from the United Kingdom in order to
comply with both the Hague Convention and Rule 4(f)(1).
Article 6 of the Hague Convention provides that when a signatory nation’s
Central Authority “has served a document or caused it to be served, it ‘shall complete a
certificate’ which ‘shall state that the document has been served and shall include the
method, the place and the date of service and the person to whom the document was
delivered.’” Joint Stock, 2018 WL 4681616, at *8 (quoting 20 U.S.T. 361, art. 6). In the
Second and Eighth Circuits, the return of a completed Article 6 Certificate by a Central
Authority “establishes prima facie evidence that the Central Authority’s service on [the

18a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 10 of 23

defendant] was made in compliance with the [C]onvention . . . and local law.” Id.
(quoting Unite Nat’l Ret. Fund v. Ariela, Inc., 643 F. Supp. 2d 328, 334 (S.D.N.Y. 2008)); 4
see also Northrup King, infra. When evaluating service under the Hague Convention,
some circuits’ deference to an Article 6 Certificate is particularly gracious to a plaintiff
seeking to serve a defendant. See, e.g., Joint Stock, 2018 WL 4681616, at *8 (quoting Burda
Media, Inc. v. Viertel, 417 F.3d 292, 301 (2d Cir. 2005) (“The Hague Convention ‘should be
read together with Rule 4, which stresses actual notice, rather than strict formalism.’”)).
However, while the Eleventh Circuit Court of Appeals has not considered this
specific issue, it appears to take a less gracious stance. Although actual notice of a
lawsuit is an important factor in considering the adequacy of proper service, “courts are
typically careful to determine whether service of process was in substantial compliance
with the formal requirements of the Federal Rules.” Codigo Music, LLC v. Televisa S.A. de
C.V., No. 15-CIV-21737-WILLIAMS/SIMONTON, 2017 WL 4346968, at *12 (S.D. Fla.
Sept. 29, 2017) (citing Prewitt, 353 F.3d at 925) (emphasis added). Faced with a similar
service issue, the Eleventh Circuit Court of Appeals stated, with respect to due process
requirements for personal jurisdiction, that “there must be more than notice to the
defendant . . . [t]here also must be a basis for the defendant’s amenability to service of

In Unite Nat’l Ret. Fund, the district court declined to “look behind the certificate of service” to
adjudicate issues of Mexican procedural law, even though the defendant “never received any of the
service documents.” 643 F. Supp. 2d at 335–36. Instead, the court found that the defendant’s sworn
denials of service did not rebut the presumption of proper service established by a process server’s
affidavit. Id. at 336.

4

19a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 11 of 23

summons.” Prewitt, 353 F.3d at 925 (quoting Omni Capital Int’l v. Rudolf Wolff & Co., 484
U.S. 97, 104 (1987)). “Absent consent,” or ostensibly, the defendant’s waiver of service,
“this means there must be authorization for service of summons on the defendant.” Id.
“In other words, an individual or entity is not obliged to engage in litigation unless
officially notified of the action under a court’s authority, by formal process.” Id. (quoting
Murphy Bros. v. Michetti Pipe Stringing, Inc., 526 U.S. 344, 347 (1999)) (cleaned up and
emphasis added).
So, in Prewitt, the Eleventh Circuit Court of Appeals made it clear that more than
the defendant’s actual notice of the suit is required for service. 353 F.3d at 925 (“[E]ven
though [the defendant] had actual notice of the filing of the suit, service of process was
ineffective because it was clearly not in substantial compliance with the requirements of
[Federal Rule of Civil Procedure] 4(f)(2)(C)(ii).”). Taking guidance from the holding in
Prewitt, the Court carefully considered the service-related facts in this case and whether
Plaintiffs service attempt on Walsh was in “substantial compliance” with Rule 4(f)(1).
Here, both the United States and the United Kingdom are signatories to the
Hague Convention, 20 U.S.T. 361; thus, service of process on Walsh in the United
Kingdom must conform to the requirements of the Hague Convention. Unite Nat’l Ret.
Fund, 643 F. Supp. 2d at 332–33. And, in order to conform to the Convention, Plaintiffs’
service attempt must also comply with English law and its requirements for service on
an individual in order to be proper under Rule 4(f)(1).

20a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 12 of 23

For starters, Plaintiffs’ efforts to serve Walsh in the United Kingdom ultimately
produced a facially valid Article 6 Certificate from the Foreign Process Section of the
Senior Courts of England and Wales. [Doc. 9 at p. 1]; Joint Stock, 2018 WL 4681616, at
*10. When there is no claim that the plaintiff failed to comply with the Hague
Convention, that the Certificate is inadequate under Article 6, or that service violates
local law, there is no basis for a court to “look behind” the Article 6 Certificate to second
guess validity of service. Joint Stock, 2018 WL 4681616, at *10.
The prima facie showing of proper service provided by an Article 6 Certificate
may be rebutted by arguing a lack of actual notice of a lawsuit or by indicating some
sort of prejudice due to a lack of proper service. Walsh never makes either of these
arguments. And other circuits have suggested that the absence of these arguments is
enough for the Court to refuse to “look behind” the English Central Authority’s Article
6 Certificate. See Northrup King Co. v. Compania Productora Semillas Algodoneras Selectas,
S.A., 51 F.3d 1383, 1389 (8th Cir. 1995) (declining to “go behind [the] certificate” to find
non-compliance with the Hague Convention but suggesting that the prima facie
evidence of proper service may be rebutted by lack of actual notice or some showing of
prejudice). However, since Walsh attacks the Hague Convention’s very application to
him because Plaintiffs failed to serve him as required by the law of the local state
(England and Wales), the aforementioned cases are distinguishable. Thus, given the

21a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 13 of 23

nature of Walsh’s arguments––that Plaintiffs used the wrong address to serve him––the
Court must “look behind” the Article 6 Certificate.
C.

Walsh’s Arguments That the Hague Convention Does Not Apply

First, Walsh argues that “any attempt at service under the Hague [C]onvention is
ineffective” without a known address. [Doc. 33-2 at p. 12 (“[T]he Hague Convention at
Article 1 only allows for service on those abroad when the address for the person to be
served is known[.]”)]; [Doc. 37 at p. 4 (“Simply put, Plaintiffs did not know Walsh’s
address and the Hague [C]onvention does not apply.”)]; 20 U.S.T. 361, art. 1 (“This
Convention shall not apply where the address of the person to be served with the
document is not known.”). Second, he attacks the validity of the Article 6 Certificate
with respect to local law, specifically, the Civil Procedure Rules of England and Wales.
[Doc. 33-2 at pp. 17–18 (“Plaintiffs have failed to properly serve under [Rule 6.3(1)(c) of
the Civil Procedure Rules of England and Wales].”)]; [Doc. 37 at pp. 4–5]. Because issues
regarding English service laws control in this case, the Court will focus its analysis
there. See Unite Nat’l Ret. Fund, 643 F. Supp. 2d at 332–33.
As briefly discussed above, Plaintiffs filed this lawsuit attempting to renew the
previous action Winston voluntarily dismissed in the Superior Court of Bibb County,
Georgia. [Doc. 1 at p. 28]; [Doc. 36-1 at ¶ 1]; [Doc. 30-1, Tate Decl., ¶ 61]. Albeit with one
day to spare under the six-month deadline to file a renewal action, this lawsuit is

22a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 14 of 23

timely. See O.C.G.A. § 9-2-61(a) in connection with [Doc. 1 at p. 27]. Now the question
becomes: Was Walsh served in this lawsuit? The short answer is no and here’s why.
With regard to service in this lawsuit, Plaintiffs attempted to serve Walsh in the
United Kingdom under Article 5 of the Hague Convention and listed Terra Nova, New
Road, Mockbeggar, Ringwood, BH24 3NJ, as the address for service. [Doc. 9 at p. 1]. No
one reasonably disputes that Walsh’s sister owns this property, lives there, and operates
a bed and breakfast on it. [Doc. 30-1, Tate Decl., ¶ 44]. Plaintiffs discovered this address
after what appears to be weeks of research by their attorney when Winston was trying
to serve Walsh in the original state-court action. See [id. at ¶¶ 41–56]. In his research,
Plaintiffs’ attorney discovered that Walsh’s wife (or, according to Walsh, accountants
representing his sister) designated the Terra Nova address as her residence three times
between April 2017 and April 2018 on documents filed with Companies House 5 in
connection with a business she started with Walsh’s sister. [Id. at ¶¶ 42–44, 46–49]; [Doc.
33-3, Walsh Aff., ¶ 19]; see, e.g., [Doc. 30-10 at p. 5]; [Doc. 30-11 at p. 2]. Additionally,
United States Customs data indicated that Walsh was listed as “consignee” on bills of

Companies House is the United Kingdom’s registrar of companies and executive agency and trading
fund of Her Majesty’s Government. [Doc. 30-1, Tate Decl., ¶ 42].

5

23a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 15 of 23

lading 6 for “at least [four] shipments of Land Rover vehicles” between October 2016
and July 2017––all received from the foreign port of Southampton in the United
Kingdom by a United States port in Brunswick, Georgia. [Doc. 30-1, Tate Decl., ¶¶ 53–
54]; [Doc. 30-13 at pp. 2, 4, 6, 8]; [Doc. 36-1 at ¶ 14]. Each bill of lading listing Walsh as
the consignee identified the shipping address as a home owned by Walsh at 106
Lakeridge Lane, Macon, Georgia, and identified the “shipper” as “Terra Nova,”7 with
New Road, Mockbeggar, Ringwood, Great Britain, as its address. [Doc. 30-13 at pp. 2, 4,
6, 8]; [Doc. 30-1, Tate Decl., ¶ 54]; [Doc. 22-3, Walsh Aff., ¶ 5].
To put all of this into context, Plaintiffs’ attorney explains that the same address
provided to Companies House on various business documents (one of which was the
certificate of incorporation for Walsh’s wife’s business) was also used by Walsh
multiple times to identify the address of an anonymous shipper to United States
Customs for Walsh’s shipment of his Land Rovers from the United Kingdom to the
United States in 2016 and 2017. [Doc. 30-1, Tate Decl., ¶¶ 55, 64 (stating that prior to

“A bill of lading is the basic transportation contract between the shipper-consignor and the carrier; its
terms and conditions bind the shipper and all connecting carriers.” Norfolk S. Ry. v. Groves, 586 F.3d 1273,
1275 n.1 (11th Cir. 2005) (cleaned up). A consignee is “[o]ne to whom goods are consigned. A consignee
acts as the agent of the consignor. The person named in a bill to whom or to whose order the bill
promises delivery.” Consignee, Black’s Law Dictionary (11th ed. 2019). “‘Consignee’ means the person
named in a bill of lading as the person to whom the goods are to be delivered.” See 49 U.S.C. § 80101(1).
6

Presumably, in an effort to be thorough, Plaintiffs’ attorney “diligently searched the Companies House
database and [found that] no company named ‘Terra Nova’ listed” the address provided on each of
Walsh’s bills of lading. [Doc. 30-1, Tate Decl., ¶ 54]. In actuality, as shown by the corporate documents for
the business started by Walsh’s wife and his sister, “Terra Nova” is part of the address itself, not the
name of an individual who could be listed as a “shipper.” [Id.]; see, e.g., [Doc. 30-10 at p. 3].
7

24a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 16 of 23

submitting the proposed summons for this lawsuit, Plaintiffs’ attorney discovered that
since attempting service in the original state-court action, four out of five additional
bills of lading using the Terra Nova address had been submitted for Land Rovers that
Walsh shipped from the United Kingdom to the United States)]; see also [Doc. 30-10 at p.
3]; [Doc. 30-11 at p. 2]; [Doc. 30-12 at p. 2]; [Doc. 30-13 at pp. 2, 4, 6, 8]. Plaintiffs’
attorney used this “confluence of data points,” as a “basis for serving . . . Walsh at [the
Terra Nova] address.” [Doc. 30-1, Tate Decl., ¶ 56]. To say it another way, Plaintiffs
essentially want the Court to use these same “data points” to effectively rule that the
Terra Nova address is, as a matter of fact and law, Walsh’s residence, whether he
actually lived there or not.
Plaintiffs’ selected method of service under the Hague Convention, Article 5(a),
states that: “The Central Authority of the State addressed shall itself serve the document
or shall arrange to have it served by an appropriate agency, . . . by a method prescribed
by its internal law for the service of documents in domestic actions upon persons who
are within its territory.” [Doc. 9 at p. 1]; see also 20 U.S.T. 361, art. 5. On March 22, 2019,
the Foreign Process Section of the Senior Courts of England and Wales, “in conformity
with [A]rticle 6 of the Convention,” certified that “[t]he documents were served by
posting them through the defendant’s post box” at the Terra Nova address. [Doc. 9 at p.
1]. That service, according to the Article 6 Certificate, “is good service under rule

25a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 17 of 23

6.3(1)(c) of the Civil Procedure Rules of England and Wales.” [Id.]. Walsh, of course,
argues otherwise.
Boiled down, Walsh’s argument (despite the certification stating that he “has
been served” at the Terra Nova address “under rule 6.3(1)(c) of the Civil Procedure
Rules of England and Wales”) is that Plaintiffs’ service attempt in this case is invalid
under local law because the Terra Nova address is not his “residence.” 8 [Id.]; [Doc. 33-2
at p. 17 (Walsh claims that “the [Terra Nova] address where he was allegedly served . . .
in this action is not an address where he resides or otherwise lives, but is the address of
his sister.”)].
As noted earlier, the local law at issue is rule 6.3(1)(c) of the Civil Procedure
Rules of England and Wales. This rule provides that “[a] claim form 9 may . . . be served
by . . . leaving it at a place specified in rule 6.7, 6.8, 6.9 or 6.10[.]” Ministry of Justice, Part

No one has offered the Court any evidence that the Central Authority investigated to see if Walsh, in
fact, lived at the Terra Nova address. And, in all actuality, it didn’t because the Hague Convention
doesn’t require the Central Authority to do so. Rather, the treaty requires the Central Authority to serve
the defendant at the address supplied by the foreign plaintiff. See 20 U.S.T. 361, art. 3; see, e.g., [Doc. 30-14
at p. 2]. The burden is on Plaintiffs to determine Walsh’s actual residence and provide that address to the
Central Authority. The fact that the English Central Authority’s Article 6 Certificate says that Walsh was
served in accordance with English service laws does little to help Plaintiffs’ case since they did not
provide the correct address for service at his residence. Had Plaintiffs “ascertained” (as discussed below)
Walsh’s correct address or sought service under rules 6.9(c)(4)–(6) permitting an alternative “place where
or a method by which service may be effected,” they could have properly served him. Ministry of Justice,
Part 6 - Service of Documents, https://www.justice.gov.uk/courts/procedure-rules/civil/rules/part06#6.9
(last visited Mar. 25, 2020).
8

The Civil Procedure Rules of England and Wales interpret “claim” to include “petition and any
application made before action or to commence proceedings and ‘claim form’, ‘claimant’ and ‘defendant’
are to be construed accordingly[.]” Ministry of Justice, Part 6 - Service of Documents,
https://www.justice.gov.uk/courts/procedure-rules/civil/rules/part06#6.2 (last visited Mar. 25, 2020).
9

26a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 18 of 23

6 - Service of Documents, https://www.justice.gov.uk/courts/procedurerules/civil/rules/part06#6.3 (last visited Mar. 25, 2020). Of these rules, only 6.9 deals with
service on individuals. 10 Ministry of Justice, Part 6 - Service of Documents,
https://www.justice.gov.uk/courts/procedure-rules/civil/rules/part06#6.9 (last visited
Mar. 25, 2020). Under English law, when the defendant to be served is an individual,
like Walsh, he must be served at his “[u]sual or last known residence.” Id. (emphasis
added).
Walsh claims that he has “never resided at Terra Nova, New Road, Mockbeggar,
Ringwood, BH23 3NJ,” and there is nothing in the record to suggest that he did. [Doc. 52, Walsh Aff., ¶ 8]; see also [Doc. 30-1, Tate Decl., ¶ 66 (confirming Plaintiffs’ notice of
Walsh’s claim that he never resided at the Terra Nova address)]; [Doc. 33-3, Walsh Aff.,
¶ 20 (stating that Walsh and his wife “have never resided at the Terra Nova address”)].
By his account, Plaintiffs failed to comply with English law for service on individuals
when they attempted to serve him at the Terra Nova address, as opposed to his actual
residence. See Ministry of Justice, Part 6 - Service of Documents,
https://www.justice.gov.uk/courts/procedure-rules/civil/rules/part06#6.9 (last visited
Mar. 25, 2020); see also Prewitt, supra. The Court agrees.

Rule 6.7 permits service on a solicitor or European lawyer within the United Kingdom, rule 6.8 allows
the defendant to, before service, give an address at which he may be served, and rule 6.10 concerns
service of a claim form in proceedings against the Crown. See Ministry of Justice, Part 6 - Service of
Documents, https://www.justice.gov.uk/courts/procedure-rules/civil/rules/part06#6.7,
https://www.justice.gov.uk/courts/procedure-rules/civil/rules/part06#6.8,
https://www.justice.gov.uk/courts/procedure-rules/civil/rules/part06#6.10 (last visited Mar. 25, 2020).
10

27a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 19 of 23

Although neither party provided the Court with guidance as to how English law
construes rule 6.9’s phrase “usual or last known residence,” there are a couple of cases
that provide a great indication to its definition. Ministry of Justice, Part 6 - Service of
Documents, https://www.justice.gov.uk/courts/procedure-rules/civil/rules/part06#6.9
(last visited Mar. 25, 2020). First, in Varsani v. Relfo Ltd (In Liquidation), the English Court
of Appeal concluded that “the critical test” for determining residence under rule 6.9 “is
the defendant’s pattern of life.” [2010] EWCA (Civ) 560, 2010 WL 1990741 (Eng.). There,
the appellant, who had “more than one ‘usual’ residence” had a “settled pattern of . . .
life” to visit a particular address “as his family home, regularly each year.” Id. While
this is a drastically different scenario than the one depicted by the facts in this case,
Varsani is still helpful in guiding the Court to an English-law definition of “residence.”
Walsh undoubtedly, as evidenced by him parking his Land Rovers there, visits the
Terra Nova address; but there is nothing to definitively suggest that his “pattern of life”
includes actually living there so as to make it a “usual” residence. [Doc. 33-3, Walsh
Aff., ¶ 15]. Again and again, Walsh states that he never resided at the Terra Nova
address, and there is nothing to show that Plaintiffs knew differently. See, e.g., [Doc. 333, Walsh Aff., ¶ 20]; [Doc. 19 at ¶ 7 (“After reasonable diligence, as of the date of this
filing, Plaintiffs have yet to learn Walsh’s address where he may be served, and Walsh
has not disclosed it.”)].

28a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 20 of 23

Second, in Collier v. Williams, the English Court of Appeal stated that a lowercourt judge “was right to hold that service was not effected on the defendant’s last
known residence for the simple reason that he had never resided [there].” [2006] EWCA
(Civ) 20, 2006 WL 63678, at *263 (Eng.). To support its decision, the English court
reasoned that the draftsman of rule 6.9 “deliberately chose” the “use of the concept of
knowledge.” Id. at *263–64. It was that court’s view that “knowledge in this context
refers to the serving party’s actual knowledge or what might be called [her]
constructive knowledge,” or “knowledge which [she] could have acquired exercising
reasonable diligence.” Id. at *264. Under its analysis, “[t]here is no other area of the law
where the concept of knowledge is equated with that of belief.” Id. at *263. Going
further, the English court explained that “[a]s a matter of the ordinary meaning of
words, to say ‘I know X’ entails the proposition that ‘X is true,’” and in interpreting this
rule, the court did “not see how the phrase ‘last known residence’ [could] be extended
to an address at which the individual to be served has never resided.” Id.
According to Collier, if the claimant attempts service at “an address which
[she] mistakenly believes is the last known residence of the defendant, it is therefore
necessary to consider the reasonableness of [her] belief.” Id. at *272. Moreover, in the
event “the claimant is misled by the defendant as to his residence, then the court is
likely to hold that the claimant had reasonable grounds for [her] belief.” Id. In those

29a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 21 of 23

circumstances, “the defendant may even be estopped from denying that the address to
which the document is sent is his last known residence.” Id.
As with American jurisprudence,
it is incumbent on a claimant to take reasonable steps to ascertain a
defendant’s last known residence. What that involves must depend on the
circumstances of the case. In many cases, the claimant will know the
address for certain. Where the position is less clear, . . . [o]ther enquiries [sic]
may have to be made.
Id. Collier undeniably shows how dangerous it can be to make assumptions. Id. Like
Plaintiffs, the claimant in Collier “did not have a reasonable basis for concluding that
[the selected address] was the defendant’s last known residence.” Id. Plaintiffs “did not
know that [the Terra Nova address] was [Walsh’s] last known residence.” Id. They
“assumed that it was.” Id.; see also [Doc. 30-1, Tate Decl., ¶ 56 (“This confluence of data
points provided [Plaintiffs’ attorney] additional basis for serving . . . Walsh at [the Terra
Nova] address.”)]. Summarily, Plaintiffs “had no real basis for believing that [the Terra
Nova address] was [Walsh’s] residence.” Collier, EWCA (Civ) 20, 2006 WL 63678, at
*272.
To ensure sure that Collier’s directives fit squarely with the facts of this case, the
Court notes that there is nothing in the record to even hint to a suggestion that Walsh
misled Plaintiffs to believe that the Terra Nova was his residence. To the contrary,
Walsh states that Winston, as his ex-wife, was “aware that the Terra Nova address
[was] not his residence but belongs to his sister.” [Doc. 33-3, Walsh Aff., ¶ 17]. She never

30a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 22 of 23

denies it either. Furthermore, the record clearly shows that while Walsh may not have
provided any assistance to help Plaintiffs “know” his residence, he certainly did not
mislead them into believing that he actually resided at the Terra Nova address. But
again, it is Plaintiffs’ obligation to take reasonable steps to ascertain Walsh’s last known
residence. Collier, EWCA (Civ) 20, 2006 WL 63678, at *272. True, Plaintiffs research
steered them to the Terra Nova address, but when you strip the procedural minutia
from this case, you are left with nothing more than an assumption based on public
records. And under Collier, the claimant’s subjective knowledge is critical. A plaintiff
must do more than assume, guess, or hope that a selected address is sufficient; she has
to know it is.
At the end of the day, the Court is left with this: Walsh says that the Terra Nova
address is not his residence, and Plaintiffs offer nothing to the Court to say that it, in
fact, is. The documents bearing the Terra Nova address for the Companies House filings
and the bills of lading are merely colorable and are not significantly probative to prove
Walsh’s residence. Josendis v. Wall to Wall Residence Repairs, Inc., 662 F.3d 1292, 1315
(11th Cir. 2011) (quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249–50 (1986)).
Bottom line, Walsh did not reside at the address where Plaintiffs tried to serve him, and
they did not know the address of his last known residence. While either one of these
facts alone is enough to doom Plaintiffs’ service attempt, the fact that both occurred in
this case certainly does. All things considered, the Court cannot accept Plaintiffs’

31a

Case 5:19-cv-00070-TES Document 40 Filed 03/27/20 Page 23 of 23

invitation to use a “confluence of data points” to judicially convert an address into a
residence when the defendant didn’t actually reside there.
CONCLUSION
Since Plaintiffs did not serve Walsh at his last known residence, they have failed
to comply with the requirements for service on an individual under English law. A
failure to serve under English law means they failed to comply with the Hague
Convention. And, when they failed to comply with the Hague Convention, they also
failed to comply with the Federal Rules concerning service of process for individuals in
foreign countries. Consequently, the attempted service is insufficient as a matter of law.
Based on this finding, the Court does not have personal jurisdiction over Walsh, and it
must GRANT Walsh’s 12(b)(5)-based Motion to Dismiss [Doc. 21] and DISMISS this
case. The Court also DENIES Walsh’s Motion for Summary Judgment [Doc. 33] and the
remaining portion of his Motion to Dismiss [Doc. 21] as it relates to Plaintiff Herndon as
moot. 11
SO ORDERED, this 27th day of March, 2020.
S/ Tilman E. Self, III
TILMAN E. SELF, III, JUDGE
UNITED STATES DISTRICT COURT

Although the Court lacks the authority to determine whether service in the original state-court action
was likewise improper, thereby making the underlying suit void so that it could not be renewed, the
Court would be hard pressed to answer that question any other way than it answered the question of
service in this case.
11

32a

